 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Nursing Home Survey and Certification:
            Overall Capacity




                    JUNE GIBBS BROWN
                     Inspector General

                        MARCH 1999
                       OEI-02-98-00330
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Lucille Cop, RN                                         Susan Burbach, Program Specialist

Danielle Fletcher

Daniel Ginsberg

Steve Shaw

Patricia Banta, RN intern





      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                     SUMMARY

PURPOSE

          To describe the overall capacity of the State survey and certification program to monitor
          quality of care in nursing homes.

BACKGROUND

          While many studies indicate that changes in law and regulations may have had a positive
          effect on improving the environment and overall health care of nursing home residents,
          recent reports by the Health Care Financing Administration and the General Accounting
          Office have raised serious concerns about residents’ care and well-being. The Senate
          Special Committee on Aging held hearings in the summer of 1998 on these results. At the
          same time, the Office of Inspector General undertook additional studies aimed at
          assessing the quality of care in nursing homes.

          The 1987 Nursing Home Reform Act changed these requirements by introducing an
          increased focus on the quality of life and care, the importance of the individual resident,
          and the need to help the resident reach the “highest practicable level” of functioning.
          Enforcement policies were established that gave the Health Care Financing Administration
          the license to impose a variety of corrective measures when a facility is not in substantial
          compliance with the requirements for participation in the Medicare and/or Medicaid
          program.

          This report examines the capacity of the State nursing home survey and certification
          program to monitor quality of care. A companion report analyzes trends in the Online
          Survey Certification and Reporting System (OSCAR) data that indicate quality of care
          problems in nursing homes. Other Office of Inspector General reports address the trend in
          reported abuse in nursing home residents and the role of the ombudsman in protecting
          nursing home residents.

          We selected a purposive sample of ten States: New York, California, Texas, Ohio, Illinois,
          Pennsylvania, Massachusetts, Florida, New Jersey, and Tennessee. We analyzed OSCAR
          data in these States to identify trends in the amount and nature of deficiencies in nursing
          homes quality of care. We obtained and reviewed written procedures for State survey and
          certification programs. To better understand the overall context of these deficiencies, we
          conducted structured interviews with the State directors and surveyors.




Survey and Certification: Overall Capacity         1                                     OEI-02-98-00330
FINDINGS

Generally Mandatory Surveys Are Performed Timely and Follow the Prescribed
Process

          All States report implementing the Health Care Financing Administration’s guidelines in
          the same way, including an entrance conference, resident interviews, reviewing medical
          records, and concluding the review with an exit conference to provide the home with
          information about their potentially deficient areas. Based on OSCAR data over the last
          four standard surveys, all sample States completed 97 percent of standard surveys for all
          nursing homes in the mandated time frame of 9 to 15 months. All States report having a
          complaint process, although their procedures vary by State.

However, There Are Significant Weaknesses in the Process

          Although all States report that nursing home standard surveys are unannounced, almost all
          directors and surveyors believe that facilities can roughly predict the survey start date.
          Most State directors and surveyors say they do not begin standard surveys on the
          weekend or evenings, but do continue standard surveys into the evening hours and
          conduct complaint surveys on weekends and evenings.

          The OSCAR data show 900 nursing homes have been cited with the same deficiencies
          over the past four contiguous surveys, representing 13 percent of all homes in sample
          States. Nursing homes are given the opportunity to correct their deficiencies without
          penalty with a plan of correction. State directors and surveyors cite concerns with
          provisions that allow facilities the opportunity to avoid penalties and comply with
          regulations after the citation of deficiencies. Half of the State Directors and three-fourths
          of surveyors indicate that current enforcement measures are questionable, citing the lack
          of both the effectiveness of the penalties and the timeliness of the enforcement.

          The OSCAR data also show that nursing home abuse complaints receive little to no
          action. Of the 4,707 substantiated and unsubstantiated abuse complaints reported between
          January 1997 and July 1998, ninety-seven percent of the complaint resolution concludes
          with no action, plans of correction, or “other”.

Staff Resources May Be Inadequate in Some Cases

          The overall number of surveyors varies by State, which may affect the intensity and
          thoroughness of their surveys, their ability to conduct follow-up reviews to verify
          correction of deficiencies, and to respond to complaints. The surveyor teams vary based
          upon facility size, resident characteristics, facility history, and surveyor availability. Some
          surveyors note the need for more Health Care Financing Administration training which

Survey and Certification: Overall Capacity           2                                      OEI-02-98-00330
          would provide a forum for surveyors to discuss issues and policy with other surveyors in
          different States.


Coordination with Ombudsman Is Not Working Effectively

          Looking specifically at abuse complaints, the survey agency received only 13 percent of
          the total ombudsmen abuse complaints per month in 1997. Some States may have agencies
          other than the survey and certification agency designated to investigate abuse complaints.
          Ombudsman programs generally investigate and work to resolve complaints brought to
          their attention. However, only 5 percent of all complaints to the State survey and
          certification agency originate from the ombudsmen.


RECOMMENDATIONS

          The resident-centered long-term care requirements of the nursing home survey are

          essential to guarantee the quality of care in nursing homes. Clearly some major problems

          need to be addressed. Our findings support and elaborate on the Health Care Financing

          Administration’s (HCFA) initiative to strengthen the enforcement efforts by: 


            <       making them more timely and effective,

            <       changing the survey schedule to make surveys more unpredictable, 

            <       increasing the number of night and weekend surveys,

            <       increasing the number of surveys at nursing homes with chronic quality of care

                    problems, and
            <       focusing on specific problems such as pressure sores, dehydration, and
                    malnutrition.

          These initiatives, if carried out completely, appear to be responsive to most of the
          problems in this report as well as our companion report “Nursing Home Survey and
          Certification: Deficiency Trends.”

          In light of our findings in this report, additional action is needed. We recommend that
          HCFA:

            <	      evaluate the surveyor staffing in each State to assure that adequate staffing is
                    available to complete all standard surveys, follow up surveys, and respond to
                    complaints,
            <       provide additional training to State surveyors,

            <       provide a forum for State surveyors to meet and discuss common issues, and

            <       facilitate better coordination with the Ombudsman program.




Survey and Certification: Overall Capacity            3                                      OEI-02-98-00330
          AGENCY COMMENTS

          We received comments on the draft report from HCFA, the Assistant Secretary for
          Planning and Evaluation (ASPE), the Administration on Aging (AoA), and informally
          from the Assistant Secretary for Legislation (ASL). The HCFA and AoA generally concur
          with our recommendations. The AoA and the ASL provided suggestions for clarifications
          of the text which have been incorporated into the final report.

          The ASPE expressed some concern about the ability of OSCAR data to assess quality of
          care in nursing homes. We recognize the limitations of OSCAR but used it as only one
          indicator of quality. We are happy to re-emphasize here what we say in our report that
          OSCAR data should not be looked at independently. In this report we used it in
          combination with the views of nursing home surveyors and State Directors.




Survey and Certification: Overall Capacity       4                                    OEI-02-98-00330
                          TABLE                        OF             CONTENTS


                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      Survey Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Weaknesses in the Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          Staff Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          Coordination with Ombudsman . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


APPENDICES

    A: Deficiency Tags . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


          B: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33





Survey and Certification: Overall Capacity                        5                                                   OEI-02-98-00330
                                       INTRODUCTION

PURPOSE

          To describe the overall capacity of the State survey and certification program to monitor
          quality of care in nursing homes.

BACKGROUND

          While many studies indicate that changes in law and regulations may have had a positive
          effect on improving the environment and overall health care of nursing home residents,
          recent reports by the Health Care Financing Administration (HCFA) and the General
          Accounting Office (GAO) have raised serious concerns about residents’ care and well-
          being. The Senate Special Committee on Aging held hearings in the summer of 1998 on
          these results. The Office of Inspector General (OIG) undertook a series of studies aimed
          at assessing the quality of care in nursing homes. This report examines the capacity of the
          State nursing home survey and certification program to monitor quality of care. A
          companion report analyzes trends in the Online Survey Certification and Reporting System
          (OSCAR) data that indicate quality of care problems in nursing homes. Future OIG
          reports will address the trend in reported abuse in nursing home residents, the role of the
          ombudsman, and the availability of nursing home survey results.

          Generally, a nursing home is a residential facility offering daily living assistance to
          individuals who are physically or mentally unable to live independently. Residents are
          provided rooms, meals, assistance with daily living, and in most cases, some medical
          treatment for those who require it. Medicare can help pay for skilled nursing facility
          (SNF) care for up to 100 days in a benefit period when a beneficiary meets certain
          conditions. Medicaid coverage varies among States. Medicaid eligible beneficiaries who
          require custodial care such as help with eating, bathing, taking medicine and toileting, as
          well as those who require skilled care may have nursing home stay paid for by Medicaid.
          Medicaid payments to nursing homes in 1996 totaled $29.6 billion. In 1989 Medicare paid
          $2.8 billion to nursing homes, an amount totaling 4.7 percent of the Medicare budget. In
          1996 this amount had increased to $10.6 billion, totaling 9 percent of the Medicare
          budget.

          In 1986 the Institute of Medicine conducted a study on nursing home regulation. The
          Institute reported prevalent problems regarding the quality of care for nursing home
          residents and the need for stronger Federal regulations. In 1987 the General Accounting
          Office (GAO) reported that over one third of nursing homes were operating below the
          Federal minimum standards. These reports, along with widespread concern regarding
          nursing home conditions, persuaded Congress to pass the Omnibus Budget Reconciliation

Survey and Certification: Overall Capacity         6                                    OEI-02-98-00330
          Act of 1987 (OBRA 1987). As a part of OBRA 1987, Congress passed the
          comprehensive Nursing Home Reform Act (PL 100-203). These actions expanded
          requirements that nursing facilities had to comply with prior to Medicare certification.
          The Nursing Home Reform Act also ceded personal rights to nursing home residents such
          as the right to be free of physical or mental abuse, and the right to be free from chemical
          and physical restraints. It also altered the principles for enforcement of Federal standards
          of care in nursing homes.

Medicare Requirements

          The Health Care Financing Administration (HCFA) has the responsibility to act as
          “prudent purchaser” by ensuring that nursing homes participating in Medicare and/or
          Medicaid meet certain requirements for quality environment and services. These
          requirements are found at 42 Code of Federal Regulations (CFR) Part 483, Subpart B.
          The OBRA 1987, as amended in 1988, 1989, and 1990, changed these requirements by
          introducing an increased focus on the quality of life and care, the importance of the
          individual resident, and the need to help the resident reach the “highest practicable level”
          of functioning. It also included interviewing and assessing residents rather than simply
          reviewing medical records.

          Also, as part of The Nursing Home Reform Act, HCFA developed the Minimum Data
          Sets (MDS) which required the Secretary to specify a minimum data set of core elements
          and common definitions in conducting the regulatory-required resident assessments and to
          establish guidelines for use of the data set. The MDS collects data through resident
          assessment measures with subsequent progress or decline documented in electronic
          format. Nursing homes must “conduct standardized, reproducible assessments of each
          resident’s functional capacity...” within 14 days of admission. Additional assessments
          must be completed within 12 months of the most recent full assessment and following a
          significant change in the resident’s status. This information tool, while aimed at improving
          assessment and consequent care planning, can also assist the surveyors in pre-survey
          preparation by highlighting potential areas of concern.

Enforcement Procedures

          The 1987 Nursing Home Reform Act enforcement provisions were enacted when the
          State Operations Manual (SOM) became effective on July 1, 1995. The HCFA had
          several process goals during the implementation of the new survey and enforcement
          systems. The first was to promote consistency through extensive training, the second was
          to link appropriate remedies to deficiencies, and the third was to avoid unnecessary
          procedures. Congress recognized that one enforcement response would not be
          appropriate for all deficiencies. Enforcement policies were established that gave HCFA
          the license to impose a variety of corrective measures when a facility is not in substantial
          compliance with the requirements for participation in the Medicare and/or Medicaid


Survey and Certification: Overall Capacity          7                                      OEI-02-98-00330
          program. Some options include temporary management, denial of payment for new
          admissions, civil money penalties, termination of the facility, or State monitoring of the
          facility. States are responsible for establishing their own remedy guidelines.

          The HCFA imposed a number of administrative changes on enforcement procedures
          following the implementation of the State Operations Manual. In June of 1995, HCFA
          enacted a temporary moratorium on the collection of certain lower-level money penalties
          (CMPs). The moratorium preceded HCFA’s decision to alter the State Operations
          Manual in December of 1996. “Civil monetary penalties are now limited to situations of
          immediate jeopardy or to nursing facilities that are poor performers or have serious
          deficiencies that are not corrected at the time of a revisit.” Additional changes by HCFA
          redefined the scope of deficiencies, permitted States to avoid revisits in facilities that have
          lower level deficiencies, and established new terms to define facilities that are not in
          substantial compliance.

Requirements of Surveys

          An important characteristic of nursing homes is their Federal certification status for the
          Medicare and/or Medicaid programs. While some nursing homes may not meet
          certification requirements, or may elect not to participate in either program, nearly all
          nursing homes had some form of certification in 1996. The Nursing Home Reform Act
          defines the State survey and certification process for determining nursing home
          compliance with the Federal standards.

          To ensure acceptable compliance, both the State for Medicaid facilities, and HCFA for
          Medicare facilities, are responsible for performing routine facility surveys. For those
          facilities designated as dually-certified, HCFA has the primary responsibility. The HCFA
          contracts with States to perform the surveys for Medicare and dually-certified nursing
          homes. The survey process determines, and the resulting survey documentation records
          (HCFA-2567), the compliance or noncompliance of the facilities. When a facility fails to
          meet a specific requirement, a deficiency or citation is given to the facility by the
          surveyors. Surveyors provide the reasons justifying any resulting enforcement action and
          the record on which to defend that action in the appeals process. Surveyors are instructed
          to use the Principles of Documentation when determining the extent of non-compliance.
          Generally, there are 20 principles that should be considered in the citation of deficiencies
          on the HCFA-2567. These principals are generic and apply to the documentation of
          survey outcomes regardless of the program (Medicare/Medicaid).

          As a result of the Nursing Home Reform Act, a new survey and certification process was
          implemented in 1995. All nursing facilities are now subject to an unannounced standard
          survey “no later than 15 months after the date of the previous standard survey,” and the
          Statewide average interval between standard surveys must be 12 months or less,” creating
          a Federal standard survey window between 9 and 15 months. Each standard survey


Survey and Certification: Overall Capacity           8                                      OEI-02-98-00330
          includes a stratified case mix of nursing home residents measuring medical, nursing and
          rehabilitative care, dietary and nutrition services, activities, social participation, sanitation,
          infection control, and the physical environment. Written plans of care are reviewed to
          determine their adequacy and an audit of residents’ assessments are conducted to
          determine the accuracy of such assessments. There is also a review of facility compliance
          of residents’ rights.

          In addition to the regular survey process there are “special” and “extended” surveys.
          Special surveys may be conducted within two months of any change in ownership,
          administration, management, or director of nursing to determine if the change is having an
          effect on the quality of care in the facility. Extended surveys are performed immediately
          or within two weeks after the standard survey completion on those facilities found to have
          provided substandard quality of care. The survey team reviews the policies and
          procedures that produced the substandard care, expands the size of the sample of
          resident’s assessments, reviews staffing, in-service training, and if necessary, contracts
          with consultants.

          The team for all surveys consists of multi-disciplinary professionals, which must include a
          registered professional nurse. Other professionals who may be on the survey team include
          social workers, therapists, dieticians, pharmacists, administrators, physicians, or others as
          selected by the State. Each State and the Health and Human Services Secretary must
          implement programs to measure and reduce inconsistency in the application of results
          among surveyors.

          Validation surveys are generally conducted by HCFA on a representative sample of
          facilities in each State and must be conducted within two months of the State survey. The
          HCFA utilizes the same survey procedure as the State agency. Recently, some HCFA
          regional offices have chosen to conduct these validation surveys simultaneously with the
          State. The HCFA must survey at least five percent of the number of facilities surveyed by
          the State each year, but this number must never be less than five surveys a year.

          The State Agency Quality Improvement Program (SAQIP) is a process calling for the
          State Agency and HCFA regional offices to work together to develop the State’s
          individual quality improvement plans (IQIPs). The regional office will assist the State by
          providing training, technical assistance, and support as necessary and appropriate. These
          individual plans are tailored to the specific needs and circumstances of each State, and are
          revised and improved based on changing needs. The SAQIP is designed to promote
          quality and ongoing improvement in survey and certification activities, and applies to all
          aspects of the survey and certification process.

Complaint Procedures

          Each State is required to maintain written procedures and adequate staff to investigate


Survey and Certification: Overall Capacity            9                                        OEI-02-98-00330
          complaints of violations at nursing homes. States must review all allegations of resident
          neglect and abuse, and misappropriation of resident property. All allegations, regardless
          of source, must be reviewed in a timely manner. If an allegation is found to have
          occurred, the State must notify in writing, the individuals implicated and the administrator
          of the nursing home where the incident transpired. In addition, each State is required to
          notify the nurse aid registry and licensure boards when an abuse or neglect claim has been
          substantiated.

Online Survey Certification and Reporting System (OSCAR)

          The HCFA’s Online Survey Certification and Reporting System (OSCAR) came online in
          October 1991 as a replacement for the Medicare/Medicaid Automated Certification
          System (MMACS) and the Rapid Data Retrieval System (RADARS). The HCFA uses
          OSCAR in its survey of Medicare and Medicaid providers to monitor State agency and
          provider performance. OSCAR contains data for the current and 3 previous surveys.
          Some of the data is overwritten as new information is entered (e.g. number of beds,
          address, and employment information), but deficiency data remains and is tracked
          historically. The HCFA recently began tracking the scope and severity of deficiencies
          historically as well.

          Part of the OSCAR data is self-reported information by the nursing homes about the
          facility and its’ patients. The remaining data is information generated by the surveyors
          based on deficiencies. The Federal regulations detailing survey requirements are classified
          into 17 major categories. The specific survey requirements within these categories were
          consolidated from 325 individual items to 185 items effective on July 1, 1995.

Prior Studies

          A recent study, “The Regulation and Enforcement of Federal Nursing Home Standards”
          by Charlene Harrington published in March of 1998, details the problems with nursing
          home certification that precipitated the action by Congress in passing the Nursing Home
          Reform Act. She challenges the declining State deficiency averages by raising the notion
          that the enforcement process may be weakening rather than nursing facilities improving
          quality of care.

          “The National State Auditors Association Joint Performance Audit on Long-Term Care”,
          completed in May of 1998 by the Louisiana Office of the Legislative Auditor, compiled
          information from ten States regarding survey and certification concerns. Issues discussed
          include licensing, inspection, sanctions, complaints, and reimbursement. The audit
          findings conclude that States should vary the timing of inspections, evaluate how
          aggressively they are imposing State sanctions on facilities with deficiencies, and avoid
          delaying the investigation of complaints.



Survey and Certification: Overall Capacity         10                                     OEI-02-98-00330
          The Secretary released a report to Congress in July of 1998 indicating that significant
          improvements were made since 1995 in the quality of care delivered by nursing homes.
          These improvements included more appropriate use of physical restraints, anti-psychotic
          drugs, anti-depressants, urinary catheters, and hearing aids. The report also found a need
          for further improvements by States, nursing homes, and others. Additional steps will be
          taken to address the problems identified in the report and include tougher enforcement of
          Medicare and/or Medicaid rules. Efforts will be aimed at preventing instances of bed
          sores, dehydration, and nutrition problems. The following are new approaches aimed at
          improving quality of care: facilities that have repeat offenses will face sanctions without a
          grace period; inspections will be conducted more frequently for repeat offenders without
          decreasing inspections at other facilities; inspections will be staggered; a set amount of
          inspections will be conducted on weekends; and efforts will be focused on facilities within
          chains that have a record of non-compliance.

          In conjunction with the Secretary’s report to Congress, the President announced a new
          nursing home care initiative to provide enhanced protections and to target needed
          improvement in nursing home care. Proposed actions include checking criminal
          backgrounds of nursing home workers, establishing a national registry of employees
          convicted of abusing patients, targeting nursing home chains with poor records, cutting off
          inspection funds to States with poor records of citing substandard quality of care,
          publishing annual nursing home surveys on the Internet, increasing Federal oversight of
          State inspections, providing additional training to State officials, changing the survey
          schedule to make them more unpredictable, increasing the number of night and weekend
          surveys, and re-authorizing the Ombudsman program in the Older Americans Act.

          One week after the President’s initiative, the Government Accounting Office (GAO)
          published a report examining the quality of care in 1,370 California nursing homes that
          were inspected from 1995 to 1998. They found 30 percent of the homes had violations
          that caused death or life-threatening harm to residents, or had understated the frequency
          of poor care by falsifying medical records. As a result of this report, the US Senate
          Special Committee on Aging, chaired by Senator Charles Grassley, held hearings in July
          1998 to discuss the findings on the quality of care in nursing homes.


METHODOLOGY

          This inspection is based on information gathered from four different sources: OSCAR
          data, a review of individual State survey procedures, interviews with State survey and
          certification directors, and State survey and certification surveyors. We looked for
          consistencies between the data and the observations of the insiders we interviewed. We
          selected a purposive sample of ten States: New York, California, Texas, Ohio, Illinois,
          Pennsylvania, Massachusetts, Florida, New Jersey, and Tennessee. These States have
          comprehensive survey and certification programs and represent 55.8 percent of the


Survey and Certification: Overall Capacity         11                                      OEI-02-98-00330
          nation’s total skilled nursing beds. In addition, they represent 56 percent ($23 billion) of
          Medicaid institutional long-term care expenditures in 1996. The purposive sample
          represents States of various sizes in different parts of the country.

OSCAR Data

          The Online Survey Certification and Reporting System (OSCAR) is the system HCFA
          uses in its survey of Medicare and Medicaid providers to monitor State agency and
          provider performance. OSCAR contains data for the current and 3 previous standard
          surveys. The second part of OSCAR is information generated by the surveyors based on
          deficiencies. The Federal regulations detailing survey requirements are classified into 17
          major categories. We analyzed three of these categories which could determine poor
          quality of care depending on their scope and severity. Resident behavior and facility
          practices includes the areas of restraints, abuse and staff treatment of residents; quality if
          life includes the residents ability to make decisions about his or her daily activities and the
          nursing home’s accommodation of those needs; and quality of care includes the technical
          ability of the nursing home to prevent and treat the medical conditions of the residents.

          We looked at those substandard quality of care deficiencies repeated over the last four
          standard surveys. We also looked at OSCAR complaint data specifically at complaints of
          abuse. We compared complaints of abuse filed from January 1997 to July 1998 to abuse
          deficiencies in the most current survey. The direct relationship between abuse codes in the
          deficiency and complaint tables allowed us to look closely at the scope of abuse and
          examine enforcement patterns and outcomes.

           Since information in the OSCAR database is constantly being updated, we downloaded
          OSCAR data on August 4, 1998. In all cases we compared our 10 sample States to
          aggregate national data both for deficiencies and complaints.

Procedures Review

          We requested each State survey and certification director to send us any written
          procedures, as well as any other relevant documentation, to obtain an overall
          understanding of the survey and certification process. We reviewed procedures and other
          State specific documentation from the eight State survey and certification agencies that
          submitted information. We examined this information for any additional State procedures
          that were not included in the Federal survey and certification guidelines.

Interviews

          We also conducted a total of thirty structured interviews; three interviews in each of the
          ten sample States, one with the State survey and certification director or a designee, and
          two with State surveyors within each State. The two State surveyors were selected


Survey and Certification: Overall Capacity          12                                       OEI-02-98-00330
          randomly from a list of at least ten surveyors submitted by the State director. During
          these interviews, we obtained information about the State survey and certification program
          structure, the processes utilized to monitor quality of care, how deficiencies are addressed,
          and the satisfaction of State survey and certification directors and surveyors with the
          process.

          We selected both directors and surveyors for their different perspectives on the survey and
          certification process. We compared the information provided by the directors to
          information provided by surveyors. In our analysis we paid special attention to consensus
          within and among the groups.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




                                             FINDINGS

Survey and Certification: Overall Capacity         13                                     OEI-02-98-00330
Generally mandatory surveys are performed timely and
follow the prescribed process

Timely surveys

          Based on OSCAR data over the last four standard surveys, all sample States completed 97
          percent of standard surveys for all nursing homes in the mandated time frame of 9 to 15
          months. An average of 3 percent of standard surveys were conducted below 9 months,
          while an average of 2 percent were conducted above 15 months.

Survey protocol

          All State survey and certification directors and surveyors report using HCFA guidelines
          that outline the protocol for the implementation of nursing home surveys. The HCFA
          survey protocol “provides instructions, check lists, and other tools for use both in
          preparation for the survey and when surveyors are on-site performing the survey. Survey
          protocols are to be used by all surveyors to measure compliance with Federal
          requirements.” The following description of the survey process is based upon a consensus
          of State directors and surveyors responses.

Entrance conference

          During the entrance conference, the team leader meets with nursing home administration,
          introduces the survey team, discusses the purpose of the visit, and requests all necessary
          paperwork. The survey team tours the facility and makes observations about the quality
          of resident care and the nursing home’s overall condition. During this initial tour,
          surveyors talk to residents and start to select residents for the interview and medical
          record review portion of the survey. The initial tour also helps surveyors to determine
          whether their pre-survey concerns found while examining data from prior surveys,
          complaints, and long-term care Ombudsman discussions continue to be concerns.

Interviews

          Many surveyors believe that an accurate picture cannot be formalized until they tour a
          nursing home and meet the residents. The HCFA guidelines require surveyors to select a
          “case-mix stratified sample of facility residents in order to assess compliance with the
          resident-centered long term care requirements” based on findings from previous surveys,
          Ombudsman information, and surveyor observations. Thus, residents are selected and
          interviewed based upon many different factors. Many surveyors feel the shift from former
          “paperwork” surveys, where there was little contact with residents or nursing home staff,
          to current resident and outcome oriented surveys, as a result of the Nursing Home Reform


Survey and Certification: Overall Capacity        14                                    OEI-02-98-00330
          Act in 1995, has improved the survey process.

          In order to gain a comprehensive understanding of the facility, surveyors report they will
          also interview anyone on the nursing home staff who can discuss the treatment and the
          activities of the residents and answer their quality of care concerns. In addition to staff,
          family members also provide beneficial information to the surveyors.

Exit conference

          All standard surveys close with the exit conference where surveyors present their findings
          to the nursing home. State survey and certification directors and surveyors report that
          deficient areas are noted although the scope and severity of the deficiency may or may not
          be discussed at the exit conference. The nursing home can provide additional information
          to refute potentially deficient areas. At the conclusion of the meeting, the survey team
          fields questions about the standard survey process or their findings. All surveyors list the
          survey team, the nursing home administrator, the Ombudsman, and the resident council, as
          groups who usually attend the exit conference.

Final survey report

          All State survey and certification directors and surveyors remark that the final survey
          report is a collaborative effort. It is a result of the survey team convening to discuss the
          deficiency list and agreeing on scope and severity designations. The survey report may
          then be reviewed by State regional supervisors or a centrally located enforcement
          committee in the State. Deficiencies may be added, deleted, or substantially changed at
          any time during the review process. Almost all State survey and certification directors and
          surveyors say that deficiencies noted by surveyors are seldom removed from the final data,
          although they may be changed after discussion. The most frequently cited reason for any
          deficiency change or removal is a failure to meet the principles of documentation, a
          requirement so that the deficiency can be supported on appeal or during enforcement
          proceedings.

Nursing home response

          If deficiencies have been cited, most State survey and certification directors and surveyors
          say nursing homes must complete a plan of correction within 10 days of receiving the
          survey report. The plan of correction addresses, in four distinct parts, how each
          deficiency will be rectified and how soon the corrections will take effect. Almost all
          directors and surveyors indicate there is a mandated time frame to correct deficiencies.
          This time frame varies, depending on the severity of each deficiency. Within two days of
          receiving notice of an “immediate jeopardy” deficiency, the nursing home must correct the
          problem or penalties will take effect. Deficiencies with no immediate jeopardy may have a
          15 day correction window before penalties take effect.


Survey and Certification: Overall Capacity         15                                      OEI-02-98-00330
          It is incumbent upon the State to verify that the facility corrects any deficiencies. States
          vary on the scope and severity of deficiencies that require surveyor revisits. Only one
          State revisits nursing homes for all deficiencies, but all States revisit in person, as required,
          for deficiencies that meet certain scope and severity requirements. For those deficiencies
          that do not require a revisit, a letter or phone call to the State agency suffice as proof of
          correction.

Additional State requirements

          While all States report using HCFA guidelines from the State Operations Manual, seven
          Directors report that they have State specific criteria in addition to HCFA guidelines. In
          practice, the more stringent of the two are implemented. Our review of the State specific
          requirements submitted by the State Directors found they include, but are not limited to,
          State licensure requirements for nursing homes. For example, one State specifies nursing
          staff resident ratios at various shifts throughout the day and night and this is measured
          during the survey. Another State requires measuring water temperature to prevent patient
          burns.

          Some States have additional databases and information sources. For example, one State
          has a web site for nursing home consumers that numerically rates nursing homes. The site
          includes the survey date, administration, nursing, resident rights, food service, and
          environment, totaling all categories for an overall score. Another State developed a
          specific database that logs information such as inspection information, license status at
          notice of violation, license status after hearings, and quality assurance licensure logs. This
          database is useful because it is tailored to the individual State’s needs and the information
          is not compiled in OSCAR.

Complaints procedures

          All States are required to “establish procedures and maintain adequate staff to investigate
          complaints of nursing home violations.” All State survey and certification directors and
          surveyors report the existence of a complaint process to address the complaints received
          concerning nursing home practices. All States log incoming phone calls which are then
          directed to the appropriate region or staff to follow up on the complaint. In some States
          separate complaint departments handle all surveys. Complaints are ranked according to
          severity of the allegation. In all cases of immediate jeopardy, an investigation must be
          initiated promptly. States vary in their response to the remainder of the calls. The balance
          of the complaints are handled anywhere from seven to 45 days. Some complaints are
          rolled into the next scheduled survey if the complaint does not warrant an abbreviated
          survey and/or the surveyors are approaching the next scheduled survey.

          According to OSCAR data almost half (44 percent) of the national complaints reported to
          the survey agency from January 1997 to July 1998 are from residents or families of


Survey and Certification: Overall Capacity           16                                      OEI-02-98-00330
          residents. A quarter are from employees or ex-employees of nursing homes, 15 percent
          are anonymous and 11 percent are some other non-specified source. Only 5 percent of
          complaints come from Ombudsmen. Figure I below displays the sources of nursing home
          complaints nationwide.


                                                   Figure I
                                      Sources of Complaints Nationwide




However,                                                                  there are
significant                                                               weaknesses in
the process
Predictability

          Although all States report that nursing home standard surveys are unannounced, almost all
          directors and surveyors believe that facilities can roughly predict the survey start date.
          The OSCAR data for three consecutive surveys indicates that 11 percent of nursing homes
          are surveyed within a two week time period of the previous survey. Since nursing home
          administrators know the Federal standard survey window is between 9 and 15 months, and
          also realize that the outcome of their latest standard survey will dictate the following
          year’s start date, those facilities with quality of care issues know their survey will fall
          closer to the 9 month end of the survey spectrum, and those with fewer deficiencies closer
          to the 15 month end of the survey spectrum. One State director declared “adhering to the
          Federal 12 month average requirement makes it extremely difficult to be totally
          unpredictable.”

          A few States note that facilities have been alerted about approaching surveys by friends

Survey and Certification: Overall Capacity           17                                  OEI-02-98-00330
          operating local hotel accommodations. Some surveyors mention that conference rooms at
          nursing homes are sometimes prepared in anticipation of the survey team’s arrival. Most
          often, facilities will simply compare the survey start dates from previous years in order to
          estimate when the upcoming survey will occur.

          States report nursing homes anticipate their annual standard survey and often modify their
          normal daily procedures to reduce potential deficiencies. In one example, facilities
          increase the number of staff on certain shifts. To alleviate this practice, directors and
          surveyors suggest more randomness in the survey schedule. One director says that
          surveys are started for all nursing homes in chain organizations on the same day to prevent
          staff shifts among nursing homes in the chain. Directors and surveyors voice concerns
          about whether or not standard surveys represent an accurate reflection of quality of care in
          nursing home. One surveyor notes, “annual standard surveys are only a snapshot in time.
          We are not seeing the true picture of these facilities throughout the year.”

          Most States say they do not begin or continue standard surveys on the weekend. One
          director notes that their union rules prohibit standard surveys on weekend hours.
          However one State has a requirement that 20 percent of surveys in each region be on the
          weekend or off hours. In addition, many States report not starting standard surveys in the
          evening hours, but almost all States cite a policy of continuing standard surveys into the
          evening hours. The policy of continuing surveys into evening hours seems to mainly be a
          function of the surveyors’ extended work day schedules.

          Questions often arise about the quality of care in nursing facilities during the weekend and
          evening hours. One director addressed this concern and replied, “we need to change the
          Health Care Financing Administration guidelines to require more night and weekend
          visits.” State survey and certification directors and surveyors did indicate that they
          conduct complaint surveys during weekend or evening hours, particularly if the complaint
          originated during these hours. Depending on the scope and severity of the complaint
          received, surveyors may initiate complaint surveys at any time of the day or week.

Abuse complaints

          From January 1997 to July 1998, 4,707 abuse complaints were reported by friends, family
          members of residents, or nursing home staff in the ten sample States. As defined by the
          Federal guidelines, abuse complaints and deficiencies violate "the residents right to be free
          from verbal, sexual, physical and mental abuse, corporal punishment, and voluntary
          seclusion." These complaints involved almost one third or 2,306 nursing homes in all ten
          States. In some situations, multiple complaints were filed against the same nursing home.
          These 4,707 complaints are divided between substantiated and unsubstantiated complaints.
          In order to substantiate a complaint a surveyor must establish that the action occurred.
          Abuse is often difficult to cite due to constraints placed on the surveyor. Abuse must be
          "observed" by the surveyors rather than recounted by the resident or family member.


Survey and Certification: Overall Capacity         18                                     OEI-02-98-00330
          Because of this limitation, many abuse complaints go without action taken against the
          nursing home. Unsubstantiated complaints do not indicate that the complaints are
          illegitimate but rather that the surveyor could not authenticate the actions. Of the 4,707
          abuse complaints in the sample States, 1,524 (32 percent) are substantiated while 3,183
          (68 percent) are unsubstantiated.

          There are 18 possible action codes that complaints could receive. Possible action
          categories include: termination, plans of correction, denial of payment for new admissions,
          fines, civil monetary penalties, license revocation, provisional licenses, receivership,
          special monitoring, injunction, suspension of Medicare payments, no action, or "other".
          Despite the differences between substantiated and unsubstantiated complaints, the number
          of complaints in both categories that conclude with no action, plans of correction, or
          "other" remain comparable. Unsubstantiated abuse complaints that conclude with no
          action plans of correction, or "other" totals 99 percent of the total complaints.
          Notwithstanding that substantiated complaints are confirmed by surveyors, 92 percent of
          them conclude with no action, plans of correction, or "other". See Figures II and III
          below.


                          Figure II                                           Figure III
                                             Complaint Outcomes




          When looking at all abuse complaints, two percent were reported after the standard survey
          cited the nursing home with an abuse deficiency. Despite the documented history of abuse
          in a particular nursing home, the outcome of the complaint investigation is confined to the
          three courses of action mentioned previously. No action was taken in 71 percent of the


Survey and Certification: Overall Capacity           19                                    OEI-02-98-00330
          complaints, 14 percent were resolved with a plan of correction without sanction, and 12
          percent fell into the “other” category.

Enforcement

          The OSCAR data shows 900 nursing homes have been cited with the same deficiencies
          over the past four contiguous surveys, representing 13 percent of all homes in the sample
          States. The number of nursing homes with repeat deficiencies ranges from 5 in New York
          to 453 in California. Table I shows the number of nursing homes in sample States with
          repeat deficiencies. There are a total of 1,359 repeat deficiencies cited among sixty-three
          different deficiency types. When we looked at the top 10 repeat deficiencies, we found
          that five are in the substandard quality of care categories. See table II below for the
          number of sample State nursing homes affected by the top 10 repeat deficiencies.


                                                    Table I

                           The Number of Nursing Homes in Sample States
                             with Repeat Deficiencies over Four Surveys


         State               Number of Nursing                 Percent of Nursing Homes    Number of Repeat
                         Homes with Repeat Deficiencies         with Repeat Deficiencies     Deficiencies

          CA                                 453                         35%                     769

          FL                                 57                          08%                     74

           IL                                134                         21%                     185

          MA                                 10                          02%                     21

          NJ                                 12                          04%                     13

          NY                                  5                          01%                      6

          OH                                 76                          09%                     94

          PA                                 29                          04%                     31

          TN                                 13                          05%                     17

          TX                                 111                         10%                     149

                                                                                           Source: OSCAR Data




Survey and Certification: Overall Capacity                20                                     OEI-02-98-00330
These nursing homes are given the opportunity to correct their deficiencies without penalty with a
plan of correction. The nursing home submits an action plan to the State agency that addresses
how each deficiency will be corrected and how soon the correction will take place. The State
agency either re-visits the facility to confirm the correction or phones or writes to the facility for
proof of correction.

                                                       Table II

                                             Top 10 Repeat Deficiencies

                                   Deficiency                  Facilities in    Facilities
                                                              Sample States    Nationwide


                Facility must store, prepare, distribute,          162            254
                and serve food under sanitary conditions
                Facility must develop comprehensive                156            221
                care plans for each resident
                Facility promotes care that maintains or           142            174
                enhances dignity
                Rooms measure 80 square feet                       100            205

                Facility must make a comprehensive                  95            187
                assessment of a resident’s needs
                Facility must provide necessary                     91            151
                housekeeping and maintenance services
                Clinical records meet professional                  84            100
                standards
                Facility should have policies that                  68             80
                accommodate need and preferences
                Facility is free of accident hazards                64             99

                Drug regimen free of unnecessary drugs              33             58

                                                                                        Source: OSCAR Data




          This data about repeat deficiencies supports the opinions of half of the State directors and
          three-fourths of surveyors indicating that current enforcement measures are questionable.

Survey and Certification: Overall Capacity               21                                  OEI-02-98-00330
          State survey and certification directors and surveyors express concern that civil monetary
          penalties, as currently administered, do not compel facilities to observe Federal regulations
          and are insufficient to influence big facilities or nursing home conglomerates.
          Additionally, civil monetary penalties are not imposed immediately, allowing facilities to
          remain non-compliant for longer periods of time.

          State survey and certification directors and surveyors also cite concerns with provisions
          that allow facilities the opportunity to avoid penalties and comply with regulations after
          the citation of deficiencies. One State director notes these provisions are “contrary to
          perpetual adherence to regulations.” Another director expresses the “need to break the
          cycle on non-compliant facilities” and is concerned that nursing homes are “not held
          accountable until there is actual harm to the resident.” Most State survey and certification
          directors and surveyors agree that civil monetary penalties could be effective, but are
          presently not enforced on a timely basis.

          A few surveyors suggest that previous enforcement efforts were more successful. One
          surveyor states that the enforcement system functioned more effectively when facilities did
          not have as many opportunities to correct deficiencies. Another surveyor adds that
          withholding payments to a deficient facility, referred to as vender hold enforcement, was
          much more effective because facilities would correct their deficiencies almost immediately.
          Some surveyors believe the current enforcement process allows deficient facilities far too
          many chances without sufficient enforcement.

          Two different opinions were expressed concerning the compliance function of the State
          survey and certification office: collaborative and punitive. Those who advocate a
          collaborative relationship seek to maintain the highest possible quality of life and care at
          nursing facilities by working with the facility. One State director remarks that nursing
          facilities are not negligent but simply “do not know how to stay out of trouble.” Another
          surveyor adds that the purpose of the survey is “not to be punitive. The object of the
          survey should not be to close a facility, but to help it strive for compliance.” Proponents
          of this opinion believe that surveyors need to better educate facility personnel, and
          constant communication is more effective than harsh penalties forcing nursing home
          closures.

          Other surveyors and State directors believe that policing efforts are most beneficial to
          nursing home residents. Some State survey and certification directors and surveyors
          maintain that leniency from the State leads to repeat deficiencies in nursing homes. One
          surveyor says “enforcement is the number one means to an end.” Another respondent
          feels surveyors are the true resident advocates, and no one is in a better position to really
          improve the lives of residents. Many States suggest greater vigilance of nursing home
          conglomerates who are able to move across State lines and reestablish themselves without
          a prior record of impropriety from other States. Nursing home lawyers utilize legal
          loopholes to place financial interests above resident well being. One surveyor notes that


Survey and Certification: Overall Capacity         22                                     OEI-02-98-00330
          “valid deficiencies go by the wayside based on a legal technicality.”

OSCAR data

          Most surveyors and more than half of directors are satisfied with OSCAR data but
          propose changes. During the pre-survey phase of a standard survey, OSCAR data from
          the previous survey are reviewed and specific quality of care issues are frequently
          targeted. At the start of the nursing home tour, surveyors may find a very different
          situation from the previous survey. The quality of care at the nursing home may have
          drastically changed for the better or worse. Therefore, surveyors suggest using OSCAR
          data in conjunction with other tools to obtain an accurate view of quality of care.
          “OSCAR is only one part of the quality of care story”, one surveyor said. A director
          notes that OSCAR is a useful instrument to help focus a survey team during the pre-
          survey, but doesn’t indicate quality of care when analyzed alone. State survey and
          certification directors and surveyors are also concerned that OSCAR data is not user
          friendly, accurate, streamlined, accessible, or timely. Another director said, “OSCAR
          generated reports are cumbersome and time consuming.” The consensus of the State
          survey and certification directors and surveyors is that OSCAR is difficult to use.



Staff resources may be inadequate in some cases
Surveyor staffing

          The overall number of surveyors varies by States, thereby affecting the number of standard
          surveys each survey team is capable of conducting each year. The average number of
          standard surveys per team is 19 a year based on four person survey teams. However, the
          range of standard surveys among the 10 sample States falls between 12 and 26 nursing
          homes a year. We are not in a position to judge the adequacy of surveyor staffing nor
          discern what is the ideal number of surveys per survey team.

          Although States complete their mandatory standard surveys, surveyors are also
          responsible to survey nursing homes where complaints were generated or when follow-up
          visits are required for nursing homes with deficiencies. Surveyor constraints may be a
          cause for concern for two reasons. First, States with a high survey per team ratio may be
          adversely affecting quality of care in nursing homes because of time constraints. Second,
          revisiting deficient nursing homes to ensure compliance or follow-up on complaints could
          also be adversely affecting quality of care because there may not be enough surveyors to
          handle the work load. Some States have surveyors dedicated solely to long term care
          while other States divide the surveyor’s responsibilities among all surveyed facilities. We
          allowed for this fact in these numbers. See Table III below for a list of surveyor staff
          dedicated to nursing home surveys in sample States.


Survey and Certification: Overall Capacity         23                                    OEI-02-98-00330
                                                           Table III

                                             Surveyor Staffing in 10 States

  State         # of              # of           # of        # of Nursing    # of Surveys      # of Residents
             Surveyors          Nursing        Residents      Homes to      per 4 Surveyor     to Surveyors
                                Homes                         Surveyors          Team
   CA             228             1309          100,391           5.74          22.96              440.3
   FL             128              732          68,969            5.72          22.88              538.8
    IL            216              650          66,187            3.01          12.04              306.4

   MA              80              524          50,542            6.55          26.20              631.8

    NJ             73              327          44,472            4.48          17.92              609.2
   NY             139              658          112,472           4.73          18.93              809.2
   OH             192              862          75,613            4.49          17.96              393.8

   PA             123              776          85,382            6.31          25.23              694.2
   TN              51              278          28,630            5.45          21.80              561.4
   TX             328             1077          72,996            3.28          13.13              222.5

                                                                                             Source: OSCAR Data

Surveyor teams

          All State survey and certification directors and surveyors have multi-disciplinary teams
          with at least one registered nurse, as required by HCFA. Social workers, nutritionists,
          sanitarians, pharmacists, consultants, and health care generalists often complete the survey
          team composition. One State is moving toward teams comprised solely of registered
          nurses with other professionals available as consultants. Nine States report the survey
          team composition fluctuates based upon the characteristics at particular nursing homes.
          Surveyors listed the facility size, resident characteristics, facility history, and surveyor
          availability, as factors that determine survey team composition.

          Many surveyors note the dedication and competency of the surveyor staff as a strength in
          the survey process. Surveyors believe the varied experience and background of staff is
          important for successful teams. One surveyor describes the staff as “unbiased people who
          are dedicated to change,” while other surveyors emphasize “excellent” supervisors who
          “respect and listen to surveyors.”



Survey and Certification: Overall Capacity                   24                                   OEI-02-98-00330
          However, three State directors report high turnover rates for surveyors, and half of the
          directors acknowledge difficulties replacing staff once they leave. Reasons for this
          difficulty include poor salary scales for surveyors, geographic constraints, and extensive
          training periods. State directors mention a variety of specialties are difficult to replace
          such as nurses, pharmacists, and social workers.

Surveyor training

          All State surveyors complete Federal training in HCFA headquarters in order to pass the
          required Standard Minimum Qualifications Test (SMQT). While new surveyor training is
          consistent across sample States, on-going training ranges from no training up to 100 hours
          a year. Most on-going training consists of in-service staff meetings facilitated internally or
          by outside consultants. Many surveyors note a lack of time to schedule on-going training,
          while others cite a decrease in HCFA facilitated training as problems. Some surveyors
          note the need for more HCFA training which would provide a forum for surveyors to
          discuss issues and policy with other surveyors in different States.



Coordination with Ombudsman is not working effectively
          We examined abuse complaints in the National Ombudsman Reporting System (NORS),
          the data collected by each State Ombudsman Program. NORS data shows 243 abuse
          complaints a month in sample States, while OSCAR data shows only 31 abuse complaints
          a month referred by the Ombudsmen to the State survey and certification agency. This is
          13 percent of the total Ombudsmen abuse complaints per month. Some States may have
          agencies other than the survey and certification agency designated to investigate abuse
          complaints. Ombudsman programs generally investigate and work to resolve complaints
          brought to their attention. Compared to other sources, the Ombudsmen have referred
          only 5 percent of the abuse complaints to the survey programs in sample States. The
          number in each of the States varies as shown in Table IV below.




Survey and Certification: Overall Capacity         25                                      OEI-02-98-00330
                                                 Table IV

                           Ombudsmen Abuse Complaints by Sample State

     State               Ombudsmen Abuse           % Of Ombudsmen Abuse              Total Abuse
                           Complaints             Complaints To State’s Total        Complaints
                                                     Abuse Complaints

      CA                           169                       18%                         961

      FL                             0                       0%                          124

       IL                            9                       2%                          476

      MA                             8                       3%                          314

      NJ                             1                       3%                           38

      NY                             5                       2%                          286

      OH                            37                       13%                         277

      PA                            15                       10%                         144

      TN                            15                       5%                          282

      TX                            65                       2%                          3299

     Total                         324                       5%                          6201

                                                                                     Source: OSCAR Data



            Although State survey and certification directors and surveyors report that State
            Ombudsmen provide useful information to the surveyor and all surveyors and State
            directors indicate that Ombudsmen are contacted either before entering, or immediately
            upon entering, the facility, surveyors report that Ombudsmen are not always available at
            the time of the survey. One surveyor said, “they are always invited and if available, they
            come.” Another surveyor said, “I haven’t seen an Ombudsman in years.” Surveyors
            report that Ombudsman also provide information regarding the facility and about specific
            residents and this information is utilized during the pre-survey process to help select
            residents for the interview and medical records to review.




Survey and Certification: Overall Capacity          26                                     OEI-02-98-00330
                             RECOMMENDATIONS


          The resident-centered long-term care requirements of the nursing home survey are

          essential to guarantee the quality of care in nursing homes. Clearly some major problems

          need to be addressed. Our findings support and elaborate on the Health Care Financing

          Administration’s (HCFA) initiative to strengthen the enforcement efforts by: 


            <       making them more timely and effective,

            <       changing the survey schedule to make surveys more unpredictable, 

            <       increasing the number of night and weekend surveys,

            <       increasing the number of surveys at nursing homes with chronic quality of care

                    problems, and
            <       focusing on specific problems such as pressure sores, dehydration, and
                    malnutrition.

          These initiatives, if carried out completely, appear to be responsive to most of the
          problems in this report as well as our companion report “Nursing Home Survey and
          Certification: Deficiency Trends.”

          In light of our findings in this report, additional action is needed. We recommend that
          HCFA:

            <       evaluate the surveyor staffing in each State to assure that adequate staffing is
                    available to complete all standard surveys, follow up surveys, and respond to
                    complaints,
            <       provide additional training to State surveyors,
            <       provide a forum for State surveyors to meet and discuss common issues, and
            <       facilitate better coordination with the Ombudsman program.

          AGENCY COMMENTS

          We received comments on the draft report from HCFA, the Assistant Secretary for
          Planning and Evaluation (ASPE), the Administration on Aging (AoA), and informally
          from the Assistant Secretary for Legislation (ASL). The HCFA and AoA generally concur
          with our recommendations. The AoA and the ASL provided suggestions for clarifications
          of the text which have been incorporated into the final report.

          The ASPE expressed some concern about the ability of OSCAR data to assess quality of
          care in nursing homes. We recognize the limitations of OSCAR but used it as only one
          indicator of quality. We are happy to re-emphasize here what we say in our report that

Survey and Certification: Overall Capacity                                                   OEI-02-98-00330
                                                      27
          OSCAR data should not be looked at independently. In this report we used it in
          combination with the views of nursing home surveyors and State Directors.




Survey and Certification: Overall Capacity                                            OEI-02-98-00330
                                                 28

                                                                                           APPENDIX A


      Definitions of Substandard Quality of Care Deficiencies
“Resident Behavior and Facility Practices” Category

Deficiency - (Ftag)                                             Definition

F0221	                                   Resident has the right to be free from any physical restraint for
                                         purposes of discipline or convenience.

F0222	                                   Resident has the right to be free from any chemical restraint for
                                         purposes of discipline or convenience.

F0223	                                   Resident has the right to be free from verbal, sexual, physical and
                                         mental abuse, corporal punishment, and involuntary seclusion.

F0224	                                   Facility must have written policies and procedures that prohibit
                                         abuse and neglect.

F0225	                                   Facility may not employ persons who have been found guilty of
                                         abuse.


“Quality of Life” Category

Deficiency - (Ftag)                                             Definition

F0240                                    Facility must promote/enhances quality of life.

F0241                                    Facility must promote care that maintains or enhances dignity.

F0242	                                   Resident has the right to choose activities, schedules, interact with
                                         members of community, and make choices about aspects of life in
                                         the facility.

F0243	                                   Resident has the right to organize and participate in resident
                                         groups.

F0244                                    Facility must listen and respond to resident or family group.

Survey and Certification: Overall Capacity                                                        OEI-02-98-00330
                                                           29
F0245	                                   Resident has the right to participate in social, religious, and
                                         community activities.

F0246	                                   Facility should have policies that accommodate residents’ needs and
                                         preferences.

F0247	                                   Resident to receive notice before room or roommate in the facility
                                         is changed.

F0248                                    Facility is to provide ongoing program of activities that fit resident.

F0249                                    Facilities director must be fully qualified.

F0250                                    Facility must provide medically related social services.

F0251	                                   Facility with more than 120 beds must employ a qualified social
                                         worker on a full time basis.

F0252	                                   Facility must provide a safe, clean, comfortable, and homelike
                                         environment.

F0253	                                   Facility must provide housekeeping and maintenance services
                                         necessary to maintain a sanitary, orderly and comfortable interior.

F0254	                                   Facility must provide clean bed and bath linens that are in good
                                         condition.

F0255                                    Facility must provide private closet space in each resident’s room.

F0256	                                   Facility must provide adequate and comfortable lighting levels in all
                                         areas.

F0257                                    Facility must provide comfortable and safe temperature levels.

F0258                                    Facility must provide comfortable sound levels.


“Quality of Care” Category

Deficiency - (Ftag)                                              Definition

F0309                                    Facility to provide necessary care for the highest practicable
                                         physical, mental, and psychosocial well being.

Survey and Certification: Overall Capacity                                                          OEI-02-98-00330
                                                            30
F0310                                    Activities of daily living do not decline unless unavoidable.

F0311                                    Resident is given treatment to improve abilities.

F0312                                    Activities of daily living care is provided for dependent residents.

F0313                                    Resident receive treatment to maintain hearing and vision.

F0314                                    Proper treatment to prevent or treat pressure sores.

F0315                                    Resident is not catheterized unless unavoidable.

F0316                                    Appropriate treatment for incontinent resident.

F0317                                    No reduction of range of motion unless unavoidable.

F0318	                                   Resident with limited range of motion receives appropriate
                                         treatment.

F0319                                    Appropriate treatment for mental or psychosocial problems.

F0320                                    No development of mental problems unless unavoidable.

F0321                                    No naso-gastric tube unless unavoidable.

F0322                                    Proper care and services for resident with naso-gastric tube.

F0323                                    Facility is free of accident hazards.

F0324	                                   Resident receives adequate supervision and assistance devices to
                                         prevent accidents.

F0325	                                   Facility must maintain acceptable parameters of nutritional status
                                         unless unavoidable.

F0326                                    Resident receives therapeutic diet when required.

F0327	                                   Facility must provide sufficient fluid intake to maintain proper
                                         hydration and health.

F0328                                    Facility must ensure that proper treatment and care is provided.

F0329                                    Each resident’s drug regimen must be free from unnecessary drugs.

Survey and Certification: Overall Capacity                                                         OEI-02-98-00330
                                                           31
F0330                                    No use of antipsychotic drugs except when necessary.

F0331	                                   Residents who use antipsychotic drugs receive gradual dose
                                         reductions.

F0332	                                   Facility must ensure that it is free of medication error rates of five
                                         percent or greater.

F0333                                    Residents are free of any significant medication errors.




Survey and Certification: Overall Capacity                                                          OEI-02-98-00330
                                                           32
                                                                            APPENDIX B

                                 Comments on the Draft Report

       In this appendix, we present in full the comments form the Health Care Financing
Administration, the Administration on Aging, and the Assistant Secretary for Planning and
Evaluation.




Survey and Certification: Overall Capacity                                          OEI-02-98-00330
                                               33
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             34
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             35
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             36
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             37
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             38
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             39
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             40
Survey and Certification: Overall Capacity        OEI-02-98-00330
                                             41
